Case: 20-2783

Document: 8-1

Page: 1

Date Filed: 01/21/2021

January 14, 2021
BLD-068
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2783
MELVIN TRENT WALKER, Appellant
VS.
GOVERNOR OF PENNSYLVANIA, ET AL.
(E.D. Pa. Civ. No. 2-19-cv-04983)
Present: AMBRO, SHWARTZ, and PORTER, Circuit Judges
Submitted by the Clerk for possible dismissal due to jurisdictional defect
in the above-captioned case.
Respectfully,
Clerk
ORDER
The appeal is dismissed for lack of appellate jurisdiction. Melvin Trent Walker
appeals from the District Court’s order of July 29, 2020, dismissing his claims against
Pennsylvania’s Governor and Secretary of Transportation. While some claims were
dismissed with prejudice, others were dismissed without prejudice, with instructions for
Walker as to how he might cure existing defects in an amended complaint. “Generally, an
order which dismisses a complaint without prejudice is neither final nor appealable.”
Borelli v. City of Reading. 532 F.2d 950, 951 (3d Cir. 1976) (per curiam). A dismissal
without prejudice can be final if the plaintiff has elected clearly and unequivocally to
stand on his complaint. See Weber v. McGrogan, 939 F.3d 232, 240 (3d Cir. 2019).
Walker has not done so; instead, he filed an amended complaint. Accordingly, the
District Court’s order is not appealable at this time.
By the Court,
s/Thomas L. Ambro
Ox>o 4Cirpuit Judge
Dated:
SLC/cc:

January 21, 2021
Melvin Trent Walker
Claudia M. Tesoro, Esq.
A True Copy:'"0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 20-2783

Document: 13

Page: 1

Date Filed: 03/10/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2783 .

MELVIN TRENT WALKER,
Appellant
v.
GOVERNOR OF PENNSYLVANIA; SECRETARY
PENNSYLVANIA DEPARTMENT OF TRANSPORTATION
(District Court No.: 2-19-cv-04983J

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge. McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY and PHIPPS, Circuit Judges
ORDER
The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge
who concurred in the decision having asked for rehearing, and a majority of the
judges of the circuit in regular service not having voted for rehearing, the petition
for rehearing by the panel and the Court en banc is denied.
Walker represents in his petition for rehearing that he wishes to “stand on [his]
complaint.” However, he did not inform the District Court that he wished to do
so, and instead filed an amended complaint. A plaintiff who wishes to invoke the
“stand on the complaint” doctrine should “file an appropriate notice with the
district court asserting his intent to stand on the complaint, at which time an order
to dismiss the action would be appropriate.” Weber v. McGrogan, 939 F.3d 232,
238 (3d Cir. 2019) (internal citation omitted). Should the District Court dismiss
all of Walker’s claims with prejudice, he could then file a new appeal within the
appropriate timeframe.

Case: 20-2783

Document: 13

Page: 2

Date Filed: 03/10/2021

BY THE COURT,

s/ THOMAS L. AMBRO
Circuit Judge
Dated:
SLC/cc:

March 10, 2021
Melvin Trent Walker
Claudia M. Tesoro, Esq.

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
MELVIN TRENT WALKER,
CIVIL ACTION

Plaintiff,
v.

NO. 19-4983

THOMAS WESTERMAN WOLF, et al.,
Defendants.
ORDER
AND NOW, this _23rd

day of July, 2020, upon consideration of Defendants’ Motion

to Dismiss (EOF No. 6) and Plaintiffs Response in Opposition (ECF No. 10), IT IS HEREBY
ORDERED AND DECREED that Defendants’ Motion is GRANTED.
IT IS FURTHER ORDERED as follows:
1. The Title VII and ADEA claims against Defendants are DISMISSED WITH
PREJUDICE; and
2. The claims arising under Constitutional Question are dismissed WITHOUT

PREJUDICE.
BY THE COURT:
/s/ Petrese B. Tucker
Hon. Petrese B. Tucker, U.S.D.J.

1

I.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY

Melvin Trent Walker (“Plaintiff’) is a Black Jewish man bom in 1967. Compl. 3, ECF No. 1.
Plaintiff brings this civil matter against Pennsylvania Governor Thomas Wolf and former
Pennsylvania Department of Transportation (“PennDOT”) Secretary Leslie Richards
(“Defendants”), for alleged violations of Title VII of the Civil Rights Act of 1964,43 U.S.C §
2000e-2, and the Age Discrimination in Employment Act (“ADEA”), 29 U.S.C. § 621. Compl. 1.
Plaintiff was a Highway Drafter Paygrade 5 for the Department of Transportation for 10 years.
Walker Aff. 2, ECF No. 1. Plaintiff claims Defendants failed to interview him according to the
guidelines described by the Pennsylvania Civil Service Rules for competitive promotion to
Highway Drafter Paygrade 7 without examination, and failed to train him as needed. Compl. 3.
Plaintiff alleges he was discriminated against based on his age, race, and color. Compl. 3.
On October 24, 2019, Plaintiff filed his Complaint. Compl. On December 13, 2019,
Defendants filed a Motion to Dismiss for Failure to State a Claim. Defs.’ Mot. to Dismiss, ECF
No. 6. Between November 8, 2019 and January 6, 2020, Plaintiff filed several notices to add
multiple claims to his suit. See, e.g., November 8, 2019 Notice, ECF No. 4. Plaintiff filed two
notices of Constitutional question. ECF Nos. 4, 9. Plaintiff also filed a notice of his Equal
Employment Opportunity Commission (“EEOC”) right to sue, as well as a notice of employment
discrimination on the basis of sex against Defendant Richards. ECF Nos. 7, 8. On January 13,
2020, Plaintiff filed a Response in Opposition to the Motion to Dismiss. PL’s Resp. in Opp’n,
ECF No. 10.
II.

STANDARD OF REVIEW

2

To prevail on a motion to dismiss under Federal Rule of Civil Procedure 12(b)(6), a
complaint must contain sufficient factual matter, accepted as true, to “state a claim to relief that
is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A claim is plausible when
“the plaintiff pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Id. Rule 8(a)(2) requires only a “short plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Pro
se complaints, “however inartfully pleaded,” are held to “less stringent standards than formal
pleadings drafted by lawyers.” Haines v. Kerner, 404 U.S. 519, 520 (U.S. 1972). However, “[the
court] need not accept as true unsupported conclusions and unwarranted inferences.” Doug
Grant, Inc. v. Greate Bay Casino Corp., 232 F.3d 173, 183-84 (3d. Cir. 2000) (internal quotation
omitted). The “complaint must do more than allege the plaintiffs entitlement to relief,” it must
“show such [] entitlement with its facts.” Fowler v. UPMC Shadyside, 578 F.3d 203, 211 (3d Cir.
2009). As such, “[t]hreadbare recitals of the cause ... of action, supported by mere conclusory
statements, do not suffice.” Iqbal, 556 U.S. at 678.
III.

DISCUSSION

Defendants argue that (1) Defendants, as individuals, cannot be sued under either Title VII or
the ADEA as a matter of law; (2) Plaintiff fails to allege facts that would satisfy a prima facie
case under the ADEA; and (3) Plaintiffs Notice of Constitutional Question is devoid of any
factual allegations. Defs.’ Mot. to Dismiss 3, 6.
It is well-settled in the Third Circuit that individual employees cannot be sued under either
Title VII or the ADEA as a matter of law. Sheridan v. E.I. DuPont de Nemours & Co., 100 F.3d
1061, 1078 (3d Cir. 1996) (“Congress did not intend to hold individual employees liable under

3

Title VII”); Hill v. Borough ofKutztown, 455 F.3d 225, 246 n.29 (3d Cir. 2006) (“[T]he ADEA
does not provide for individual liability.”).
Further, to make a prima facie case under the ADEA, Plaintiff must show “1) that he belongs
to the protected class, 2) that he applied for and was qualified for the job, 3) that despite his
qualifications he was rejected, and 4) that the employer either ultimately filled the position with
someone sufficiently younger to permit an inference of age discrimination or continued to seek
applicants from among those having plaintiffs qualifications.” Barber v. CSXDistrib. Servs., 68
F.3d 694, 698 (3rd Cir. 1995).
As the Complaint stands, Plaintiff does not plead enough factual allegations from which the
Court may draw reasonable a conclusion that Plaintiff can articulate a prima facie case under the
ADEA. Plaintiff fails to allege facts showing he satisfied the requirements of prong two: that he
applied for and was qualified for the position of Highway Designer Paygrade 7. Plaintiff further
fails to allege the requirements of prong four: that the person who filled the position of Highway
Designer Paygrade 7 was significantly younger than him and equally unqualified, or that
PennDOT continued to solicit applications from younger individuals with the same or less
experience as Plaintiff. Defs.’ Mot. to Dismiss 6. Additionally, the Notices of Constitutional
Question do not contain any factual allegations from which the Court may draw any reasonable
conclusions in favor of the Plaintiff.
The Complaint and Notices filed by Plaintiff do not satisfy Rule 8(a)(2). If Plaintiff would
like to add the claims discussed in the Notices—the Constitutional questions and an employment
discrimination on the basis of sex claim—Plaintiff must amend his Complaint to include those
claims. Plaintiff also must include factual allegations to show the Court that the Plaintiff is

4

entitled to relief. If Plaintiff wishes to pursue new claims under Title VII and the ADEA, he must
ensure he does not make these claims against individuals instead of employers.
IV.

CONCLUSION

For the reasons set forth above, the Court GRANTS Defendants’ Motion to Dismiss for
Failure to State a Claim WITH PREJUDICE as it pertains to the claims arising under Title VII
and the ADEA and WITHOUT PREJUDICE as it pertains to the claims arising under
Constitutional question.

5

